U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Mitchell J. Stein v. United States of America,
S.Ct. No. 20-326

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 8,
2020, and placed on the docket on September 11, 2020. The government’s response is due on
October 12, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 12, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0326
STEIN, MITCHELL J.
USA

JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM

